   April 27, 2006




Environment
Use of Environmental Insurance by
the Military Departments
(D-2006-080)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AFCEE                 Air Force Center for Environmental Excellence
ADUSD(ESOH)           Assistant Deputy Under Secretary of Defense (Environment,
                         Safety, and Occupational Health)
EI                    Environmental Insurance
GAO                   Government Accountability Office
ODUSD(I&E)            Office of the Deputy Under Secretary of Defense for Installations
                         and Environment
PBC                   Performance-Based Contracting
NAVFAC                Naval Facilities Command
USACE                 United States Army Corps of Engineers
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                            April 27,2006
MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE FOR
                 INSTALLATIONS AND ENVIRONMENT
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
SUBJECT: Report on the Use of Environmental Insurance by the Military Departments
         (Report No. D2006-080)

       We are providing this report for review and comment. We considered
management comments on a draft of this report from the Deputy Under Secretary of
Defense for Installations and Environment and the Air Force Center for Environmental
Excellence when preparing the final report.
       DoD Directive 7650.3 requires that all issues be resolved promptly. Comments
from the Deputy Under Secretary for Defense for Installations and Environment and the
Air Force Center for Environmental Excellence were partially responsive. We request
additional comments on all recommendations by May 26,2006.
       If possible please provide management comments in electronic format (Adobe
Acrobat file only) to Audacm@dodirz.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Kimberley A. Caprio at (703) 604-9202 (DSN 664-9202) or Ms. Rhonda L. Ragsdale
at (703) 604-9347 (DSN 664-9347). See Appendix B for the report distribution. The team
members are listed inside the back cover.



                                            Richard B. Jolliffe
                                      Assistant Inspector General
                                  Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D2006-080                                                       April 27, 2006
   (Project No. D2004-D000CB-0216.000)

      Use of Environmental Insurance by the Military Departments

                                 Executive Summary

Who Should Read This Report and Why? DoD contracting and environmental
program management personnel responsible for contracting for environmental cleanups
on active and closed DoD installations and sites should read this report. The report
discusses the use of environmental insurance when contracting for environmental cleanup
services.

Background. Environmental insurance is a tool used to transfer the risk of potential cost
overruns and legal liability from the property owner to the contractor and the insurance
provider when performing environmental cleanups. This allows the owner and the
contractor to achieve greater certainty of their financial obligations in environmental
cleanups. In April 2001, the Office of the Deputy Under Secretary of Defense for
Environmental Security issued a memorandum encouraging the use of environmental
insurance to manage potential legal, financial, and environmental risks associated with
the cleanup of closed DoD properties. Currently, the Military Departments are the
primary users of environmental insurance for both active and closed installations. Using
environmental insurance allows DoD to transfer portions of the risk of cost overruns and
unexpected schedule changes to the contractor and the insurance provider. By DoD
shifting the risk, the contractor is strongly motivated to complete the environmental
cleanups in a timely and cost-efficient manner. When the Military Departments use
environmental insurance, the contractor rather than DoD is the insured party. However,
environmental insurance policies can be structured to allow DoD to have additional
insured status and assignability privileges that give DoD some of the same protections as
the insured contractor.

As early as February 2000, the Navy incorporated the use of environmental insurance
with firm-fixed-price contracts awarded for environmental cleanups to encourage the
application of performance-based contracting principles. Performance-based contracting
is a contracting method that defines a service requirement in terms of performance
objectives and provides the contractor with the latitude to determine how to meet those
objectives. Using environmental insurance provided maximum opportunities for the
contractor to enter into the firm-fixed-price performance-based contracting method.
Since 2001, the Army and Air Force have issued 40 performance-based contracts with
environmental insurance. The environmental insurance cost $39 million, or 7.9 percent,
of the total contract costs of $491.5 million. The Navy performed one firm-fixed-price
contract using environmental insurance in February 2000, at a cost of $28.8 million at the
Charleston Naval Complex.

Results. The use of environmental insurance is relatively new and is not being used on a
consistent basis throughout DoD. Specifically, the Army and Air Force have increased
environmental insurance use, while the Navy originally used environmental insurance but
has chosen to limit its use to early transfers of sites closed because of Base Realignment
and Closure efforts. The varied use of environmental insurance is attributed to the lack
of DoD level guidance to identify the appropriateness and use of environmental insurance
and lessons learned based on environmental insurance use to date. Without guidelines at
the DoD level, DoD may miss opportunities to reduce risk through the use of
environmental insurance for environmental cleanups or may incur additional cost for
environmental insurance not needed. DoD contracting officers took steps to evaluate and
obtain a fair and reasonable price on the total contract price when contracting for
environmental cleanup services with environmental insurance. However, we were unable
to entirely determine whether DoD received a fair and reasonable price for the
environmental insurance portion of the contracts because the contracting officers did not
evaluate the price of environmental insurance separately, but as part of the total contract
price. We also reviewed the manager’s internal control program as it relates to the
Military Departments’ controls over evaluating whether to use environmental insurance.

Management Comments and Audit Response. The Assistant Deputy Under Secretary
of Defense (Environment, Safety, and Occupational Health) provided comments for the
Deputy Under Secretary of Defense for Installations and Environment. He partially
concurred with the recommendation to perform a survey of lessons learned for effective
use of environmental insurance, stating that a survey will be conducted once additional
environmental insurance experience was obtained. He partially concurred with the
recommendation to establish milestones for issuing guidance on environmental insurance
use, stating that the Assistant Deputy Under Secretary of Defense (Environment, Safety,
and Occupational Health) was in the process of developing a handbook on performance-
based contracting for environmental cleanup projects, which would include key
provisions for using environmental insurance. Finally, he stated that the report did not
sufficiently support the need to include monitoring the contractors’ adherence to the
provisions of the environmental insurance policy. We acknowledge the Assistant Deputy
Under Secretary of Defense (Environment, Safety, and Occupational Health) efforts to
develop a handbook to include direction on environmental insurance use; however, his
comments were partially responsive because he failed to provide estimated timeframes
for the completion of the survey and issuance dates for the handbook. We request the
Assistant Deputy Under Secretary of Defense (Environment, Safety and Occupational
Health) provide comments on the final to provide the milestones.

The Acting Chief, Environmental Division, DCS/Installation, Logistics and Mission
Support (the Acting Chief), providing comments for the Director, Air Force Center for
Environmental Excellence, partially concurred with the recommendation to monitor
contractors’ adherence to environmental insurance provisions to preclude voiding the
policy. The comments were partially responsive. We request the Acting Chief provide
comments to the final report outlining how the Air Force will monitor contractors’
adherence to environmental insurance provisions and timeframes for completing the
action.

We request that both the Assistant Deputy Under Secretary of Defense (Environment,
Safety, and Occupational Health) and the Acting Chief provide comments on the final
report by May 26, 2006. A discussion of the management comments is in the Finding
section of the report and the complete text is in the Management Comments section.




                                            ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               4

Managers’ Internal Control Program                                       5

Finding
     Use of Environmental Insurance Within DoD                           6

Appendixes
     A. Scope and Methodology                                           17
         Prior Coverage                                                 18
     B. Contracts Reviewed                                              19
     C. Report Distribution                                             20

Management Comments
     Assistant Deputy Under Secretary of Defense (Environment,
           Safety, and Occupational Health)                             23
     Department of the Air Force                                        28
     Deputy Assistant Secretary of the Army (Environment, Safety, and
           Occupational Health)                                         30
Background
           Environmental Insurance. Environmental insurance (EI) is a tool used to
           transfer the risk of potential cost overruns and legal liability from the property
           owner to the contractor and the insurance provider when performing
           environmental cleanups. By transferring risk to the contractor and the insurance
           provider, the property owner can achieve greater certainty of the financial
           obligations in environmental cleanups. Although EI transfers risk of cost
           overruns and legal liability to the insurance provider, the contractor still retains
           some level of risk because each insurance policy requires the contractor to pay a
           deductible, referred to as “self-insured retention,” and a co-insurance1 payment
           before the insurance provider pays any claims.

           During the early 1980s, when EI was initially offered by insurance providers, the
           number of insurance providers and the market for EI were limited. Since then,
           the market for EI has expanded rapidly to include both the private and public
           sectors; however, the number of insurance carriers remains limited. Currently,
           there are only three major insurance providers that offer EI for significant
           environmental cleanup projects that exceed $10 million in estimated costs. The
           insurance providers offer the following EI coverage:

                    •   Cleanup cost cap insurance2 covers instances where the actual cleanup
                        cost exceeds the estimated cost and will cover up to an agreed-upon
                        amount once the cleanup cost exceeds the estimated cost.

                    •   Pollution legal liability insurance covers claims against the current or
                        previous property owner arising from cleanup, bodily injury, or
                        property damage resulting from contamination.

                    •   Insurance that covers claims arising from pre-existing known and
                        unknown contamination below reportable levels. All parties with
                        interest in the property can be named insured parties on the property
                        transfer insurance policy.

                    •   Insurance that covers sites with known environmental contamination
                        for which cleanup and development activities are planned.

           DoD Use of EI. In April 2001, the Office of the Deputy Under Secretary of
           Defense for Environmental Security issued a memorandum encouraging the use
           of EI to manage potential legal, financial, and environmental risks associated with
           cleanup of closed DoD properties. Currently, DoD components use EI for both
           active and closed installations. Within DoD, the Military Departments are the
           primary users of EI. Using EI allows DoD to transfer portions of the risk of cost
           overruns and unexpected schedule changes to the contractor and the insurance
           provider when contracting for environmental cleanups. By DoD shifting the risk,

1
    Co-insurance is a percentage of the cost overrun paid by the contractor (named insured).
2
    Cleanup cost cap insurance is also known as stop gap loss insurance.

                                                       1
           the contractor is strongly motivated to complete environmental cleanups in a
           timely and cost-efficient manner. In addition the contractor has an incentive to
           use innovative methods for the cleanup, and by purchasing EI, the contractor can
           limit its risk. The contractor limits its risk because when unexpected conditions
           occur during the cleanup causing cost overruns and schedule changes, the
           contractor can file a claim with the insurance provider, seeking reimbursement for
           the unexpected expenses. When DoD components use EI, the contractor rather
           than DoD is the insured party. However, environmental insurance policies can be
           structured to allow DoD to have additional insured status and assignability
           privileges that give DoD some of the same protections as the insured contractor.

           As early as February 2000, the Navy included EI with firm-fixed-price contracts
           awarded for environmental cleanups. The motivation of using EI within the firm-
           fixed-price contracts was to apply performance-based contracting (PBC)
           principals within the environmental cleanup arena. PBC is a contracting method
           that defines a service requirement in terms of performance objectives and
           provides the contractor with the latitude to determine how to meet those
           objectives. Using the firm-fixed-price PBC method allows DoD to:

                   •    place maximum risk and full responsibility for cost and resulting profit
                        or loss upon the contractor,

                   •    provide maximum incentive for the contractor to control cost and
                        perform effectively, and

                   •    promote maximum innovation in cleanup technologies and strategies
                        by the contractor.

           The Army and Air Force contracting and environmental cleanup program
           management personnel stated that using EI, where appropriate, provided
           opportunities for the contractor to enter into the firm-fixed-price PBC and transfer
           potential risk of cost overruns and unexpected schedule changes from DoD to the
           contractor and insurance provider. When choosing to use EI, DoD provides the
           funding to the contractor to pay the nonrefundable premium up front. According
           to the U.S. Army Environmental Center (Army Environmental Center), the
           industry standard for the cost of EI is approximately 6 to 15 percent of the total
           environmental cleanup cost.

           DoD Components Involved in Environmental Cleanups. Within DoD, the
           primary organizations responsible for management or contracting for
           environmental cleanups are the Office of the Deputy Under Secretary of Defense
           for Installations and Environment (ODUSD[I&E]), the U.S. Army Corps of
           Engineers (USACE), the Army Environmental Center, the Naval Facilities
           Command (NAVFAC), and the Air Force Center for Environmental Excellence
           (AFCEE).3 The primary users of EI, within the Military Departments, are



3
    The Air Force Major Commands also award their own contracts for environmental cleanup services at the
    Air Force installations; however, as of July 2005, none had issued environmental cleanup services
    contracts with EI.

                                                     2
essentially the contracting officers and environmental cleanup program manager
personnel who are responsible for the requiring, procuring, and monitoring of
environmental cleanup and EI.

        ODUSD(I&E). ODUSD(I&E) provides, operates, and maintains the
installation assets and services necessary to support the military forces.
Specifically, ODUSD(I&E) manages the DoD Installation Restoration Program
and the Military Munitions Response Program. Both programs focus on ensuring
the environmental cleanup of active DoD installations and closed DoD properties.
As such, ODUSD(I&E) is responsible for issuing guidance to include direction on
both the Department’s use of PBC for environmental cleanup services and the
Department’s use of EI.

        USACE. USACE provides DoD and other Government agencies, as well
as foreign governments, with critical engineering, construction, and
environmental management services. USACE plays a major role in managing
numerous environmental programs that includes cleaning up areas on former
military installations contaminated by hazardous waste for DoD Components, as
well as for other Federal organizations. USACE began using EI, with firm-fixed-
price PBC environmental cleanup contracts, in March 2002.

        Army Environmental Center. The Army Environmental Center
implements the Army’s environmental program by providing services such as site
studies, investigations, design and technical assistance, remedial action activities,
and long-term operations and monitoring. As part of implementing the Army’s
environmental program, the Army Environmental Center manages the
environmental cleanup of active and excess Army installations, as well as
provides technical support regarding environmental cleanup of active, excess, and
closed Army installations. The Army Environmental Center began using EI in
September 2001, when contracting for environmental cleanup services with firm-
fixed-price PBC.

        NAVFAC. NAVFAC manages the environmental cleanup for the Navy
shore installations. In February 2000, the Navy initiated the use of EI on a test
basis using a firm-fixed-price contract for the environmental cleanup of the
Charleston Naval Base Complex (Charleston Project) following the 1995 Base
Realignment and Closure recommendation to close the Charleston Naval Base
Complex. NAVFAC did not receive its desired cost savings and has not used EI
since when contracting for environmental cleanup services for either active or
closed installations. Currently, NAVFAC uses EI for the early transfer of closed
shore installations to local governments or commercial developers through grants.
DoD accomplishes this by negotiating a price for the environmental cleanup with
the local government or commercial developer and providing a grant for the
negotiated amount. DoD includes the cost of EI in the total grant amount. Using
the grants allows the Navy to transfer the closed installation earlier and transfer
responsibility for management of site cleanup to the local government or
commercial developer.

       AFCEE. AFCEE provides environmental and engineering services
associated with both active and closed DoD installations to Air Force and other

                                      3
    DoD organizations. AFCEE began using EI, with firm-fixed-price PBC
    environmental cleanup contracts, in September 2002.

    Dollars Expended on EI. When contracting for environmental cleanups using
    EI, the Army and Air Force use a firm-fixed-price PBC contracting method. Over
    the last 4 years the Army and Air Force awarded 40 PBC contracts using EI for a
    total of $491.5 million. Of the $491.5 million, a total of $39 million, or
    7.9 percent of total contract costs was attributable to EI. For this audit, we
    reviewed 11 of the 40 contracts. The table below outlines the total contract value
    and the value of the EI associated with the Army and Air Force contracts awarded
    over the last 4 years.

                The Army and Air Force Use of Environmental Insurance
                             FY 2001 Through FY 2005

                                             Total                     Insurance as
                                            Contract      Insurance     Percent of
                                 Number of   Cost         Premium        Contract
                                 Contracts (millions)     (millions)       Price
      Army Cleanup Sites
       Active                        25        $374.1        $29.6          7.9
       Closed                        11          99.6          7.9          8.0

      Air Force Cleanup Sites
       Active                         1            8.2         0.7          8.4
       Closed                         3            9.6         0.8          8.6

       Totals                        40        $491.5        $39.0          7.9


    The Navy awarded one firm-fixed-price contract using EI in February 2000, at a
    cost of $28.8 million at the Charleston Project.


Objectives
    The overall audit objective was to determine the overall use within DoD of
    insurance for environmental contracts. Specifically, we determined whether DoD
    effectively used insurance when contracting for environmental services and
    whether DoD received a fair and reasonable price when using EI. We also
    reviewed the management control program as it related to the overall objective.
    See Appendix A for a discussion of the scope and methodology and prior audit
    coverage.




                                          4
Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of USACE and AFCEE management controls over contract
    management and administration for 11 contracts with EI. Specifically, we
    reviewed USACE and AFCEE controls over evaluating whether to use EI,
    ensuring EI policies contained the appropriate provisions to benefit DoD, and
    overseeing the administration of the contract as it relates to the EI policy.
    Because we did not identify a material weakness, we did not assess management’s
    self-evaluation. We did not review the management controls at ODUSD(I&E)
    and Navy because we did not review any individual contracts with EI.

    Adequacy of Management Controls. The USACE and AFCEE management
    controls over contract management and administration were adequate; we
    identified no material control weaknesses.




                                       5
           Use of Environmental Insurance Within
           DoD
           The use of EI is relatively new and is not being used on a consistent basis
           throughout DoD. Specifically, the Army and Air Force have increased EI
           use, while the Navy originally used EI but has chosen to limit its use to
           early transfers of sites closed because of Base Realignment and Closure
           efforts.

           The varied use of EI is attributable to the ODUSD(I&E) not issuing
           overarching DoD guidance to identify the appropriateness and use of EI
           and lessons learned based on EI use to date.

           Without guidelines at the DoD level, DoD may miss opportunities to
           reduce risks through the use of EI for environmental cleanups or may be
           incurring additional costs for EI when not needed.

DoD Goals for Environmental Cleanup
    In the 2004 Defense Installation Strategic Plan, ODUSD(I&E) outlines the
    Department’s goals for the environmental cleanup of DoD installations
    contaminated by hazardous substances, pollutants, and military munitions. One
    primary goal of the Plan is for DoD to identify, track, and report on the
    environmental conditions at each DoD active and closed installation. In its efforts
    to identify the environmental condition of each active and closed installation,
    DoD categorized each installation and site as having high, medium, or low risk.
    These categories of risk define the severity of the contaminant levels, the chance
    of the contaminant traveling outside the current affected area, and the exposure of
    the contaminant on an installation or site. The DoD goal is to have the
    environmental cleanup solution for active sites designated as high-risk in place
    by 2007, medium-risk sites by 2011, and low-risk sites by 2014. For closed sites,
    the DoD goal is to have the environmental cleanup solution in place for high- and
    medium-risk sites by 2007 and 2011 respectively, and cleanup solutions for
    low-risk sites by 2020. The goals established by DoD to complete the
    environmental cleanup solutions, as well as the actual environmental cleanups,
    drive the Military Departments decision on whether to use firm-fixed-price PBC
    with EI.


DoD Use of EI
    While the environmental industry has used EI since 1979, the Military
    Departments did not initiate the use of EI until 2000, as a part of environmental
    cleanup of closed installations. Since then the Military Departments have also
    begun to incorporate the use of EI when contracting for active installations
    cleanup. Over the last 5 years, both the Army and Air Force have increased their
    use of EI for cleanups of active installations. Specifically, the Army and Air
    Force have used EI on contracts for the environmental cleanup of groundwater

                                         6
contaminated with various hazardous materials, landfill closures, cleanup of
drinking water, and other types of environmental cleanups. The Navy has chosen
to limit its use of EI to early transfers of closed sites as part of the Base
Realignment and Closure efforts. Because the Military Departments have taken
different positions on what is the most beneficial use of EI, there is inconsistent
use of EI throughout DoD.

Army Use of EI. Based on the Army’s experience in using EI since 2001, on
36 contracts, the Army has realized lessons learned and identified processes,
practices, and strategies for requiring, procuring, and monitoring EI that appear to
be working well. In addition, both USACE and the Army Environmental Center
have developed guidance to address the use of EI. Specifically, USACE issued,
“Fixed-Price Remediation with Insurance,” dated October 1, 2003, and the Army
Environmental Center issued, “Performance-Based Contracting Guidebook,”
dated June 10, 2005.

According to both of the published Army guidances for using EI, the Army
applied the following steps to evaluate the viability of using EI. First, Army
contracting officers, in cooperation with the program management personnel, as
part of an evaluation of the appropriateness of EI, assessed the need for EI based
on the following factors:

       •   Is there a significant potential for cost uncertainties?

       •   Is there a significant potential for cost or schedule overruns?

       •   Is the estimated contract award price more than $2 million?

       •   What type of competitive process will be used to award the contract?

       •   Will the contractor be encouraged to use innovative cleanup
           approaches?

       •   What is the financial risk to the contractor for completing the proposed
           cleanup?

       •   Are State and local regulatory standards for closure mandatory?

       •   What type(s) of contaminant(s) are being disposed of and what
           methods of cleanup are being used?

       •   How well has the proposed cleanup site been defined and
           characterized?

The Army guidance does not specify in which cases EI should be used based on
the results of the evaluation, but leaves the decision to the discretion of the
contracting officer and program manager. Thus the Army uses the results of this
evaluation to define whether a significant level of risk for cost overruns



                                      7
and unexpected schedule changes exists and can be transferred from DoD to the
contractor. If the risk level is significant enough, then the contracting officer and
project manager would consider using EI.

Second, once the contracting and program management personnel make the
decision to use EI, the requirements for EI, to include the type and amount of
insurance, are incorporated in the solicitation. According to USACE and Army
Environmental Center officials, when EI is not required, it is acceptable for a
contractor to include EI in its proposal.

Regardless of whether EI is required or not, the source selection board evaluates
each proposal on its technical merit, price, and past performance, at a minimum.
In addition, as part of the source selection process, Army contracting personnel
evaluate proposed EI policies for compliance with requirements outlined in the
solicitation and for key provisions. For example, two key provisions are
“additional insured” and “assignability,” which provide DoD protection if the
contractor is unable to fulfill the requirements of the contract.

       •   The additional insured provision allows the insurance provider to
           transfer the rights and obligations of the EI policy to the Army in the
           event the original contractor (the named insured) is unable to complete
           the contract requirements.

       •   The assignability provision allows the Army to reassign the EI policy
           to a replacement contractor should the original contractor fail to
           perform in accordance with the contract. This allows DoD to continue
           to have the cleanup insured and avoid a costly replacement or loss of
           premiums paid.

Finally, the Army monitors contractors’ adherence to provisions of the EI policy
to preclude voiding the policy. For example, the EI policy for the barracks at
Hunter Army Airfield, Georgia, requires the contractor (the named insured) to
periodically provide all cleanup cost data to the insurance provider. The USACE,
Omaha District contracting officer requires that he also receives copies of these
reports to ensure the contractor meets the provisions of the insurance policy. If a
contractor fails to adhere to the provisions of the EI policy, DoD would no longer
have the insurance coverage it paid for. Furthermore, DoD will most likely have
to expend additional funds to purchase another EI policy or for the actual
environmental cleanup cost resulting from cost overruns or unexpected schedule
changes. Thus, monitoring by the contracting officer should allow for early
detection of any possible noncompliance of EI policy provisions.

Air Force Use of EI. The Air Force has been using EI since 2002 and also issued
guidance. Specifically, AFCEE issued, “Environmental Restoration
Performance-Based Contracting Concept of Operations,” dated November 16,
2005, that is similar to Army guidance, and identifies Air Force processes,
practices, and strategies used to solicit and award firm-fixed-price PBC contracts
that include EI. The AFCEE Concepts of Operations states that before deciding
to use EI an evaluation should be conducted to determine whether the cost of EI
warrants the benefits to be gained. The one difference between the Army and Air
Force practices is that Air Force does not monitor contractor adherence to EI

                                      8
policy provisions. According to an Air Force contracting officer, monitoring for
adherence to EI policy provisions should not be necessary because the contractor
has a vested interest in keeping the policy valid. However, it is in the best interest
of the Air Force to monitor the contractor because, should the contractor not
comply with the EI policy provisions, the EI policy could be voided which could
impact both the Air Force and the contractor.

Review of Army and Air Force Contracts With EI. Based upon our review of
11 firm-fixed-price PBC contracts for environmental cleanup services that
included EI, the Army and Air Force were diligent, and in all cases complied with
the requirements identified in their guidance. See Appendix B for a listing of the
11 contracts reviewed at USACE and AFCEE.

Use of Consultant. Both the Army and Air Force used EI consultants to assist
them in assessing their use of EI for environmental cleanup projects, as well as
evaluating the language in solicitations and proposals that include EI. The EI
consultants had experience in underwriting, environmental cleanup, and EI.
According to Army and Air Force officials, the use of EI consultants helped
considerably in identifying clauses needed in solicitations requiring EI and
ensuring EI policies contain provisions to protect DoD.

Army and Air Force Assessment of Advantages of EI Use. According to
Army and Air Force officials who use EI, the monetary benefits of using EI are
not yet fully realized. Even though there are benefits from the use of EI, both the
Army and the Air Force stated that an evaluation should be conducted before
deciding to use EI to determine whether the cost of EI warrants the benefits to be
gained The majority of environmental cleanup contracts are awarded for a period
of 5 to 10 years. Of the 40 contracts awarded by USACE, the Army
Environmental Center, and AFCEE since 2001, 23 were awarded within the last 2
years. According to Army and Air Force officials, since many of the contracts are
still in the early stages of environmental cleanup, it is too early to anticipate that
claims would have been filed. However, according to contracting officers and
insurance providers, because DoD is not the named insured on the EI policy, they
may not be notified of claims filed by contractors (the named insured).

However, Army and Air Force contracting officials using EI stated that there are
clear benefits to using EI that allow DoD to better manage and control the cost of
environmental cleanups. These benefits include:

   •   reducing risk to DoD of potential cost overruns and unexpected schedule
       changes, by transferring the risk to the contractor and insurance provider;
       and

   •   enhancing the likelihood of a contractor entering into firm-fixed-price
       PBC contracts and using innovative technologies and strategies for
       environmental cleanup services.

Navy Use of EI. In 2000, as a test model, the Navy issued a firm-fixed-price
contract using EI as part of the acquisition strategy. This was for the cleanup of
the Charleston Project prior to its closing as part of the 1995 Base Realignment

                                      9
and Closure. According to Navy officials, the results of the Charleston Project
were less than favorable, because the Navy had unrealistic expectations of
potential cost savings and expected to transfer the entire risk associated with the
cleanup to the contractor. To better understand why the expected results were not
realized, the Navy contracted with the Center for Naval Analysis to conduct two
studies to determine how well the Charleston Project worked and to identify
lessons learned on the use of firm-fixed-price contracts for environmental
cleanups. The Center for Naval Analysis reports, “Insured Fixed-Priced
Contracts: Capping the Cost of BRAC Environmental Cleanup,” dated
February 2000, and “Fixed Price Insured Environmental Contracts: Lessons
Learned,” dated October 2001, concluded that the Navy did not obtain its desired
results because the Navy expected to transfer full responsibility and risk for
completing the Charleston Project cleanup. Specifically, as related to EI, the cost
of the insurance and other measures of indemnity were far more expensive than
the Navy expected and the use of EI did not directly result in a cost saving. The
Center for Naval Analysis reports finally concluded that the Navy could in the
future achieve more favorable results, if it limited the use of EI to smaller-scale
cleanup projects.

According to the Acting Director of Environmental Programs, NAVFAC
Headquarters, due in part to the Center for Naval Analysis studies, the Navy does
not use EI with contracts for active installation environmental cleanup. Instead,
the Navy uses EI in conjunction with grants it makes to local governments or
commercial developers to transfer closed Navy installations. Under the grant the
local government or commercial developer is responsible for managing the
cleanup and is required to purchase EI. The estimated cost of the EI is included
in the amount of the grant which the Navy pays to the local government or
commercial developer. By using this method, the Navy is able to transfer the
property prior to cleanup earlier than expected. According to the Acting Director
of Environmental Programs, NAVFAC Headquarters
       “NAVFAC Headquarters, the Navy is not completely opposed to using
       EI for future cleanup projects on active or closed installations;
       however; the Navy would only consider using EI after carefully
       weighing the specific project risks and cost. The Navy’s priority for
       environmental cleanups, in accordance with the Defense Installation
       Strategic Plan, is the cleanup of sites declared as high risk. This is a
       significant consideration in the use of insurance for two reasons. First,
       unlike the earlier DoD Guaranteed Fixed-Price Remediation contracts,
       the Navy does not contract for cleanup of entire installations with
       insurance because funds earmarked for high risk sites would have to be
       spent on lower risk sites that are included in the installation. This
       would severely impact Navy’s ability to maximize completion of high
       risk sites by the end of FY 2007 per the DoD guidance. Secondly, high
       risk sites are typically, more complex and carry greater uncertainty.
       Contracting for sites with a high degree of unknown site conditions are
       generally not done under fixed price contracts because the savings that
       may be associated with fixed-price contracts are outweighed by the
       cost the Government would end of paying for insurance of higher risk.
       The Navy heavily uses fixed-price contracts, including, performance-
       based, for sites that have been well characterized and therefore do not
       require insurance to mitigate risk to the contractors.”

                                         10
    Fair and Reasonable Price for EI. When making a source selection decision,
    the Military Departments’ contracting officers have to consider the fairness and
    reasonableness of the proposed contract price. Federal Acquisition
    Regulation 15.305(a)(1), “Proposal Evaluation,” states that normally competition
    establishes a fair and reasonable price; therefore, when contracting for a firm-
    fixed price, a comparison of proposed contractor prices would satisfy the
    requirements to perform a price or cost analysis. The Army and Air Force
    contracting officers used full and open competition to award the 11 firm-fixed-
    price PBCs for environmental cleanup services with EI. By comparing the total
    proposed contract prices, Army and Air Force personnel gained a reasonable
    assurance that the contract prices received on the 11 firm-fixed-price PBCs were
    fair and reasonable. Because the contracting officers evaluated the total contract
    price for fairness and reasonableness, the EI price would also be considered fair
    and reasonable. In addition to the full and open competition and price
    comparisons, the EI price on 9 of the 11 contracts reviewed was within the
    industry standard of 6 to 15 percent of the total environmental cleanup services
    contract price. Because the Army and Air Force contracting officers did not
    evaluate the price of EI separately, we were unable to determine whether DoD
    received a fair and reasonable price for the EI portion of the contracts. Since the
    Navy does not use EI in contracting for environmental cleanup services, we did
    not evaluate any practices in place to evaluate the fair and reasonableness of
    contract prices or prices for EI.


Guidance on EI Within DoD
    The use of EI among the Military Departments is varied. This is due in part to the
    limited use of EI to date, as well as the lack of overarching guidance at the DoD
    level. According to an ODUSD(I&E) official, ODUSD(I&E) has not issued
    overarching guidance because EI is a new tool within DoD. The official further
    stated that ODUSD(I&E) is in the process of developing a guidebook on PBC.
    The guidebook will also include direction on the use of EI when contracting for
    environmental cleanups and will define how best to use EI as a tool to share risk.
    The estimated completion date of the ODUSD(I&E) guidebook is the summer
    of 2006.

    Military Service-Level Guidance on EI. While the DoD level guidance is not
    yet available, the Army and Air Force have issued guidance as previously
    discussed. The overall intent of the Military Service-level policies is to provide
    the Army and Air Force contracting and program management personnel with
    direction on how to implement a PBC approach for environmental cleanups. In
    addition, each policy provides guidelines for requiring, procuring, and monitoring
    EI when it is used as part of the PBC approach. According to USACE, Army
    Environmental Center, and AFCEE personnel, both the Army and Air Force used
    lessons learned and obtained assistance from EI consultants in developing the
    guidance.

    Planned Office of Secretary of Defense Guidebook. As stated previously,
    ODUSD(I&E) is drafting a guidebook on PBC that will include direction on the

                                        11
     use of EI when contracting for environmental cleanups. However, as of
     April 2006, specifics on the type and extent of detail regarding the use of EI were
     not available. However, the guidebook should be an excellent tool to address the
     DoD level position on the use of EI, as well as draw from the experience, lessons
     learned, and guidance already available at the Military Service level. The
     ODUSD(I&E) guidebook can incorporate this as appropriate.

     At a minimum ODUSD(I&E) should ensure the guidebook includes the following
     key factors relating to EI:

            •   criteria for determining when to use EI on environmental cleanup
                projects,

            •   designation of key provisions (such as assignability and additional
                insured) should be included in all EI policies, and

            •   need for contractor monitoring for adherence to key provisions of the
                EI policy.


Benefits of Using EI
     The Army and Air Force contracting and environmental cleanup management
     personnel see major benefits to using EI and have encouraged its use as an
     opportunity to transfer risks associated with potential cost overruns and
     unexpected schedule changes from DoD to the contractor and the insurance
     provider. Further, the Army and Air Force contracting and environmental
     cleanup management personnel believe EI enhances the opportunities to use firm-
     fixed-price PBC for environmental cleanup services because much of the risk can
     be transferred from the contractor to the insurance provider. The Air Force
     believes a business case analysis should be performed to evaluate whether the
     cost of EI warrants the benefits to be gained. By comparison, the Navy has not
     ruled out future use of EI, nor has it encouraged the use of EI for environmental
     cleanup projects. The Navy’s past use of EI did not realize the desired benefits;
     therefore, the Navy does not consider EI an incentive to contractors to compete
     for firm-fixed-price PBC when contracting for environmental cleanup services.

     Value of Overarching Guidance. ODUSD(I&E) has not yet issued overarching
     guidance to address the use and benefits of EI. Without guidance at the DoD
     level, DoD may miss opportunities to reduce risks through the use of EI for
     environmental cleanups or may be incurring additional cost for EI when not
     needed. Establishing an overarching DoD position on the purpose and benefits of
     using EI will provide the umbrella under which the Military Departments have to
     operate and implement using EI. In addition to the overarching DoD position,
     guidance that highlights specifics based on lessons learned from USACE, the
     Army Environmental Center, and AFCEE that have been successful in using EI
     will also provide the Military Departments with a better understanding of the
     benefits from using EI and best practices to follow.



                                         12
    Opportunity to Identify EI Benefits. As indicated by both Army and Air Force
    officials using EI, many of the benefits of EI are yet to be realized because the
    environmental cleanup projects and contracts are in the early stages. As the DoD
    focal point for policy and environmental issues, ODUSD(I&E) should take the
    lead in conducting a survey to identify lessons learned for practices, processes,
    and strategies for the effective use of EI. Results of the survey should be used to
    update the guidebook and improve opportunities for EI use.


Management Comments on the Finding and Audit Response
    The Air Force, Acting Chief, Environmental Division, DCS/Installations,
    Logistics, and Mission Support Comments. The Acting Chief Environmental
    Division, DCS/Installations, Logistics, and Mission (the Acting Chief) provided
    comments for the Director, Air Force Center for Environmental Excellence. The
    Acting Chief partially concurred with the finding, stating the Air Force was
    making considerable progress in using performance-based contracting for
    environmental cleanup contracts, with or without environmental insurance.
    Furthermore, the Acting Chief stated that the overall Air Force position is that EI
    is a tool that can be used in some cases to transfer risk; however, an evaluation of
    the appropriateness of EI should be conducted to determine whether the cost of EI
    warrants the benefits to be gained.

    Audit Response. We acknowledge the progress being made, not only by the Air
    Force, but the Army and the Navy, in using performance-based contracting for
    environmental cleanup contracts. We agree that EI is a tool to transfer risk and an
    evaluation should be conducted to determine the appropriateness of EI for
    specific environmental cleanup projects.

    Deputy Assistant Secretary of the Army (Environment, Safety, and
    Occupational Health) Comments. Although not required to comment, the
    Office Assistant Secretary of the Army (Environment, Safety, and Occupational
    Health) provided comments on the finding. The Office Assistant Secretary of the
    Army (Environment, Safety, and Occupational Health) comments were clarifying
    in nature and we considered them and made appropriate changes as deemed
    necessary.


Recommendations, Management Comments, and Audit
  Response
    The Assistant Deputy Under Secretary Defense (Environment, Safety, and
    Occupational Heath) [ADUSD(ESOH)] provided comments for the Deputy Under
    Secretary of Defense for Installations and Environment and the Acting Chief,
    Environmental Division, DCS/Installations, Logistics, and Mission Support
    provided comments for the Director, Air Force Center for Environmental
    Excellence.

                                         13
Revised Recommendation. As a result of management comments, we revised
draft recommendation 1.c. to clarify the intent of the recommendation.

1. We recommend the Deputy Under Secretary of Defense for Installations
   and Environment:

        a. Survey the Army, Navy, and Air Force for lessons learned and
results achieved on the use of environmental insurance to identify practices,
processes, and strategies for effectively using environmental insurance when
contracting for environmental cleanup services.

Management Comments. The ADUSD(ESOH) partially concurred, agreeing
that a survey of the Army, Navy, and Air Force experiences with environmental
insurance will be useful once they have gained more experience in using
environmental insurance to formulate lessons learned and make recommendations
on specific practices

Audit Response. Management comments were partially responsive. The
ADUSD(ESOH) did not provide an estimated completion date for the survey;
therefore, we request the ADUSD(ESOH) provide comments addressing when it
expects to conduct and complete the survey of the Army, Navy, and Air Force for
lessons learned on the use of environmental insurance.

b. Establish milestones for issuing overarching guidance on the Department’s
position on the use of environmental insurance when contracting for
environmental services. The guidance should include the following, at a
minimum:

              (1) criteria for determining when to use environmental
insurance,

               (2) key provisions (such as additional insured and
assignability) that should be included in all environmental insurance policies,

Management Comments. The ADUSD(ESOH) partially concurred and stated,
as discussed in the report, ADUSD(ESOH) was finalizing a handbook on
performance-based contracting in environmental restoration that will address the
use of environmental insurance. The handbook will address the “criteria” and
“key provisions” discussed in the recommendation.

Audit Response. Management comments were partially responsive. As
acknowledged in the report, we recognize the ADUSD(ESOH) efforts in the
development of a handbook on performance-based contracting in environmental
restoration that will include “criteria” and “key provisions” for the
implementation and use of environmental insurance. However, the initial date for
issuing the handbook was Fall 2005; therefore, we request the ADUSD(ESOH)
provide a response to the final report on the estimated completion and issuance
dates for the handbook.

               (3) need for contractor monitoring for adherence to key
provisions of the environmental insurance policy, and

                                   14
Management Comments. The ADUSD(ESOH) partially concurred and stated
the report does not sufficiently support the need for contractor monitoring for
adherence to key provisions.

Audit Response. Based on the management comments, we reconsidered the
sufficiency of the support for the recommendation and found that additional data
was needed. We provided additional support outlining the need for contracting
officer monitoring the contractors’ adherence to the provisions of the
environmental insurance policy. Specifically, contracting officers monitoring the
contractors’ adherence to the environmental insurance policy is needed to prevent
voiding the policy, which could result in DoD losing the insurance coverage it
purchased. We request that ADUSD(ESOH) consider the additional information,
reconsider the recommendation, and provide comments on the final report.

              (4) lessons learned based upon results of Recommendation 1.a.

Management Comments. The ADUSD(ESOH) partially concurred, stating the
Army, Navy, and Air Force representatives had already contributed lessons
learned from using environmental insurance in the development of the handbook
on performance-based contracting for environmental restoration. The
ADUSD(ESOH) stated they will survey for additional lessons learned when the
Army, Navy, and Air Force gain more experience.

Audit Response. See the audit response for Recommendation 1.b.1 and 1.b.2.

       c. Establish a process to evaluate whether DoD is achieving the
anticipated benefits of risk reduction, cost savings, timely completion of
cleanup projects, and increased use of performance-based contracting for
environmental cleanup services, as it relates to environmental insurance.

Management Comments. The ADUSD(ESOH) partially concurred, stating that
DoD currently had a process in place that tracks cleanup progress made on all
DoD sites on an annual basis. DoD extracts data from this process and uses it to
assess whether DoD is achieving the benefits of risk reduction, cost savings,
timely completion of projects, and increased use of performance-based
contracting. In addition to this data, the examination of lessons learned, as
discussed in Recommendation 1.b.4. will also assist in the assessment of whether
DoD is achieving the anticipated benefits from using environmental insurance.

Audit Response. Based on management comments, we revised the
recommendation to clarify the intent of the draft recommendation to specifically
address the evaluation of the benefits received from using environmental
insurance. If the current process used by DoD to annually track the progress of
site environmental cleanups can account for benefits achieved from the use of
environmental insurance, then this process would meet the intent of the
recommendation. Accordingly, we request the ADUSD(ESOH) provide
comments outlining the process and showing how DoD is achieving the
anticipated benefits from using environmental insurance.



                                    15
2. We recommend that the Director, Air Force Center for Environmental
Excellence incorporate procedures to monitor for contractor adherence to
environmental insurance provisions to preclude voiding the policy.

Management Comments. The Air Force, Acting Chief, Environmental Division,
DCS/Installations, Logistics, and Mission Support partially concurred. However,
the Acting Chief, Environmental Division, DCS/Installations, Logistics, and
Mission Support did not provide specifics on how he intends to implement the
recommendation and the estimated completion date of the corrective action.

Although not required to comment, the ADUSD(ESOH) agreed with the
recommendation but questioned why it addressed only the Air Force because
DoD will direct all the Military Departments to incorporate procedures to monitor
for contractor adherence to environmental insurance provisions.

Audit Response. The Acting Chief comments were partially responsive.
Because the Acting Chief did not provide specifics on how he intends to
implement the recommendation and the estimated completion date of the
corrective action, we request that he provide comments in response to the final
report.

The recommendation is addressed only to the Air Force because the Air Force
criteria did not include the requirement to monitor the contractors’ adherence to
provisions of the insurance policies. While on the other hand, the Army does
perform monitoring of contractors to ensure contractors’ adhere to provisions of
the insurance policy. Finally, the Navy is not addressed because currently, the
Navy does not use environmental insurance when contracting of environmental
cleanups on active installations.




                                    16
Appendix A. Scope and Methodology
           We evaluated the DoD methodology for using EI and DoD policies and
           regulations on the use of EI in contracting for environmental cleanups. We
           obtained four separate spreadsheets from USACE, the Army Environmental
           Center, and AFCEE that included a universe of 40 firm-fixed-price PBC
           environmental cleanup contracts from FY 2001 through FY 2005, with EI. The
           table below shows the contract universe and the number of contracts reviewed,
           per component.

               Universe and Sample of Firm-Fixed-Price Environmental Contracts
                               With Environmental Insurance

                       Component                           Universe       Sample reviewed

             USACE                                             10                  7
             Army Environmental Center                         26                  0
             AFCEE                                              4                  4
              Total                                            40                 11


           We limited our scope to USACE and AFCEE environmental cleanup contracts
           with EI. We did not review Army Environmental Center environmental cleanup
           contracts with EI because Army Audit Agency had already performed an audit of
           the Army Environmental Center’s performance-based contracts that included a
           review of its use of EI.* In addition, we did not review Navy contracts because
           the Navy does not procure EI for environmental cleanup services; instead, the
           local government or commercial developer conducting the environmental services
           procures the EI.

           We collected, reviewed, and analyzed documents dated from April 2001 through
           January 2006. Specifically, we evaluated contracts, requests for proposals,
           solicitations, statements of objectives, source selection criteria, EI policies, and
           other contract documentation related to 11 firm-fixed-price contracts with EI,
           totaling $79.5 million, with an EI value of $7.65 million. We also reviewed
           policies, processes, and guidelines governing the requirements and procurement
           of EI.

           We interviewed ODUSD(I&E), USACE, Army Environmental Center, AFCEE,
           Air Combat Command, Air Force Real Property Agency, Naval Facilities
           Command, and Naval Base Realignment and Closure and Office personnel to gain
           a better understanding of the history, purpose, processes, and benefits of using
           and procuring EI. We also interviewed two EI providers to gain an understanding
           of


*
    As of April 2006 Army Audit Agency had not issued its report.

                                                    17
      the EI industry’s position on DoD use of EI for environmental cleanup services.
      In addition, we obtained an understanding of the underwriting procedures for an
      EI policy.

      We performed this audit from May 2005 through January 2006 in accordance
      with generally accepted government auditing standards.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      Use of Technical Assistance. We did not use technical assistance to perform this
      audit.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office (GAO) has identified several high-risk areas in DoD. This
      report provides coverage of the DoD Contract Management high-risk area.


Prior Coverage
      During the last 6 years, GAO issued two reports discussing environmental
      insurance. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov.

GAO
      GAO Report No. GAO-05-94, “Brownfield Redevelopment: Stakeholders Report
      That EPA’s Program Helps to Redevelop Sites, but Additional Measures Could
      Complement Agency Efforts,” December 2, 2004

      GAO Report No. GAO-01-52, “Brownfields: Information on the Programs of
      EPA and Selected States,” December 15, 2000




                                         18
Appendix B. Contracts Reviewed
       The table below shows the 11 firm-fixed-price PBC contracts with EI that we
       reviewed at USACE, Omaha District and AFCEE.


                       Firm-Fixed-Price PBC with Insurance
                                               Army
      Contract                                                                        Contract
     Award Date                  Project Name                   Contract Number       Amount

 March 25, 2002       Fort Leavenworth, Kansas               DACA45-02-C-0011        $19,871,134

 June 30, 2004        Atlas Site 10; York, Nebraska          W9128F-04-0019-0001       4,260,075

 September 24, 2004   MCA Barracks; Hunter Army              DACA45-03-D-0029-0001     2,219,946
                      Airfield, Georgia

 September 30, 2004   Omaha Lead Site; Omaha, Nebraska       DACA45-03-D-0029-0002     2,273,446

 April 15, 2005       Seymour Johnson Air Force Base         W9128F-04-D-0018-0002    12,389,145

 May 13, 2005         Shaw Air Force Base                    DACA45-03-D-0026-0002     7,786,024

 May 27, 2005         Fort Gillem, Georgia                   DACA45-03-D-0029-0003   12,784,227

                                             Air Force

 September 23, 2002   Charleston Air Force Base              F41624-01-8552-0022       3,999,863

 March 5, 2003        Former Grissom Air Force Base          F41624-01-D-8544-0020     2,492,103

 December 28, 2004    Davis Site, McClellan Air Force Base   FA8903-04-D-8670-0158     3,108,225

 June 13, 2005        Langley Air Force Base                 FA8903-04-D-8688-0014     8,198,215




                                               19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense for Installations and Environment
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant, Secretary of the Army (Installations and Environment)
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers
  Commander, U.S. Army Corps of Engineers - Omaha District
Commander, Army Environmental Center

Department of the Navy
Assistant, Secretary of the Navy (Installations and Environment)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant, Secretary of the Air Force (Installations and Environment)
Auditor General, Department of the Air Force
Commander, Air Combat Command
Commander, Air Force Center of Environmental Excellence
Director, Air Force Real Property Agency

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency




                                           20
Non-Defense Federal Organization
Office of Management and Budget


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        21
Assistant Deputy Under Secretary of Defense
(Environment, Safety, and Occupational Health)
Comments




                      23
     Final Report
      Reference




     Revised
     Page 15




24
Final Report
 Reference




Revised
Page 11




Revised
Page 10




Revised
Page 10




               25
26
27
Department of the Air Force Comments




                     28
Final Report
 Reference




Revised




Revised
Page 12
Revised




               29
Office of the Assistant Secretary of the Army
(Installations and Environment Comments)




                       30
Final Report
 Reference




Revised




Revised




               31
     Final Report
      Reference




     Deleted




     Revised



     Revised




     Revised




     Revised




32
Final Report
 Reference




Revised




Revised
Page 12




               33
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report are
listed below.

Richard B. Jolliffe
Kimberley A. Caprio
Rhonda L. Ragsdale
Robert P. Goldberg
Patrice L. Berry
Tabitha J. Lemley
Maurice L. Foster
Meredith H. Johnson




                            34
